No. ____________

IN THE

LEZMOND CHARLES MITCHELL,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit
CERTIFICATE OF COMPLIANCE
Pursuant to Rule 33.2(b), I hereby certify that this petition is less than 40
pages, and therefore complies with the page limit set out in Rule 33. This brief was
prepared in 12-point Century Schoolbook font.
Respectfully submitted,
CUAUHTEMOC ORTEGA
Interim Federal Public Defender
DATED: August 13, 2020

By: /s/ Celeste Bacchi
CELESTE BACCHI*
Deputy Federal Public Defender
Attorneys for Petitioner
LEZMOND CHARLES MITCHELL
*Counsel of Record

27

